HHS/OIG, Audit -"Review Of Medicare Part B Payments To Emergency Medical Services System,"(A-09-03-00037)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review Of Medicare Part B Payments To Emergency Medical Services System," (A-09-03-00037)
July 30, 2003
Complete
Text of Report is available in PDF format (763 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Emergency Medical Services System (EMSS) was
paid by the Medicare program only for transporting beneficiaries to allowable facility destinations as defined by the Centers
for Medicare and Medicaid Servicess guidelines.  Our audit disclosed that EMSS incorrectly
billed the Medicare program for transporting beneficiaries to unallowable facility destinations.  Based on a statistical
sample, we estimated that EMSS claimed and received $19,929 of unallowable Medicare reimbursement.  The claims for
unallowable services occurred Administrative Services (Noridian) because EMSS used incorrect destination modifiers on its
Medicare claims.  We recommended that the Medicare carrier (i) recover the $19,929, and (ii) educate EMSS on the Medicare
guidelines for allowable ground ambulance destinations and the correct use of destination modifiers.